No. ______
In the

Supreme Court of the United States

__________________
DEAN HOTOP, KEN SCHNEEBELI, JEFF ZELL, SHERMAN
ZELL, LOIS ZELL, LOUISE PETER, SEIGI TADOKORO, PAT
CREMA, SEAN RHINEHART, SHUCHUN HUANG, JAMES
CAMPAGNA, SAL RUIZ, ISAAC AGAM, STEVE MAHL,
LLOYD KIP, ROBERTA MOORE, DENG LIU, SHASHA
CHEN, XIAODONG LI, ZHONGHUA PEI, XIAOCONG YE,
SMALL PROPERTY OWNERS ASSOCIATION - SAN JOSE, IN
ITS REPRESENTATIVE CAPACITY ON BEHALF OF ITS
ASSOCIATION MEMBERS,

Petitioners,
v.
CITY OF SAN JOSE, A MUNICIPAL CORPORATION,
Respondent.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
FRANK A. WEISER
Counsel of Record
LAW OFFICES OF FRANK A. WEISER
3460 Wilshire Blvd., Suite 1212
Los Angeles, CA 90010
(213) 384-6964
maimons@aol.com
Counsel for Petitioners
June 14, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
1. Does City of San Jose Ordinance 30032 which
requires that a landlord produce and transmit his or
her business records and information to the City under
compulsion of criminal sanctions for non-compliance
and without also providing for pre-compliance judicial
review constitute a “constructive” search under the
Fourth Amendment, and if so, is it unconstitutional?

ii
PARTIES TO THE PROCEEDINGS
DEAN HOTOP, KEN SCHNEEBELI, JEFF ZELL,
SHERMAN ZELL, LOIS ZELL, LOUISE PETER,
SEIGI TADOKORO, PAT CREMA, SEAN
RHINEHART, SHUCHUN HUANG, JAMES
CAMPAGNA, SAL RUIZ, ISAAC AGAM, STEVE
MAHL, LLOYD KIP, ROBERTA MOORE, DENG LIU,
SHASHA CHEN, XIAODONG LI, ZHONGHUA PEI,
XIAOCONG YE, SMALL PROPERTY OWNERS
ASSOCIATION - SAN JOSE, in its representative
capacity on behalf of its association members were
plaintiffs in the United States District Court for the
Northern District of California and appellants in the
United States Court of Appeals for the Ninth Circuit.
The CITY OF SAN JOSE, a municipal corporation
was a defendant in the United States District Court for
the Northern District of California and an appellee in
the United States Court of Appeals for the Ninth
Circuit.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner SMALL PROPERTY OWNERS
ASSOCIATION - SAN JOSE has no parent corporation,
and no publicly held company owns 10% or more of its
stock.

iv
STATEMENT OF RELATED PROCEEDINGS
There are no proceedings in state or federal trial or
appellate courts, or in this Court, directly related to
this case within the meaning of this Court’s Rule
14.1(b)(iii).”

v
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . iii
STATEMENT OF RELATED PROCEEDINGS . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . ix
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT. . . . . . . . . 7
A. THE NINTH CIRCUIT MAJORITY
OPINION MISAPPREHENDED THE
APPROPRIATE FOURTH AMENDMENT
INQUIRY AS WELL AS THE
FUNDAMENTAL NATURE OF THE
INTERESTS IT PROTECTS. . . . . . . . . . . . . . 8
B. THE NINTH CIRCUIT CONCURRING
OPINION ERRED IN HOLDING THAT
UNDER NO CIRCUMSTANCES DOES A
COMPELLED PRODUCTION OF
DOCUMENTS OR INFORMATION BY WAY
OF A REGULATORY ORDINANCE
IMPLICATE THE FOURTH AMENDMENT
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

vi
C. THERE IS NO “REQUIRED RECORDS”
EXCEPTION UNDER THE FOURTH
AMENDMENT SUCH THAT THE
PETITIONERS LOST THEIR FOURTH
AMENDMENT RIGHTS IN THEIR
BUSINESS
RECORDS
AND
INFORMATION MERELY BY THE
ADOPTION OF THE ORDINANCE . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(December 7, 2020) . . . . . . . . . . . App. 1
Appendix B Order Granting Motion to Dismiss
Without Prejudice in the United
States District Court Northern
District of California San Jose
Division
(October 4, 2018) . . . . . . . . . . . . . App. 29
Appendix C Judgment in the United States
District Court Northern District California
(October 12, 2018) . . . . . . . . . . . . App. 57
Appendix D Order Denying Petition for Panel
Rehearing and Rehearing En Banc in
the United States Court of Appeals for
the Ninth Circuit
(January 13, 2021) . . . . . . . . . . . App. 59
Appendix E U.S. Constitution Amendment IV
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 61

vii
Appendix F 42 U.S. Code § 1983. Civil action for
deprivation of rights . . . . . . . . . . App. 62
Appendix G City of San Jose Municipal Code
Chapter 17.23 - Rental Dispute
Mediation and Arbitration for
Dwelling Units Excluding
Mobilehomes and Mobilehome Parks
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 63
Part 3 - Initial Rent and Rent
Increases; Petition and Hearing
Process. . . . . . . . . . . . . . . . . . . . . App. 63
Part 5 - Enforcement . . . . . . . . . App. 64
Part 6 - Evictions - Rent Stabilized
Units . . . . . . . . . . . . . . . . . . . . . . App. 65
Part 7 - Tenant Buyout Agreements
. . . . . . . . . . . . . . . . . . . . . . . . . . . App.67
Part 8 - Fair Return Standard
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 67
Part 9 - Rent Registry. . . . . . . . . App. 83
Appendix H City
of San Jose, California
Regulations for Chapter 17.23
Including Apartment Rent Ordinance
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 85
Chapter 4 Registration and Fee
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 85

viii
Chapter 8 Landlord Fair Return
Petitions; Hearings Authorized
. . . . . . . . . . . . . . . . . . . . . . . . . . . App. 86
Chapter 9 Landlord Petitions for Pass
Through of Charges for Specified
Capital Improvements; Administrative
Decisions Authorized . . . . . . . . . App. 87

ix
TABLE OF AUTHORITIES
CASES
Bonds v Cox,
20 F.3d 697 (6th Cir. 1994) . . . . . . . . . . . . . . . . . . 9
Boyd v United States,
116 U.S. 616 (1886) . . . . . . . . . . . . . . . 5, 10, 11, 12
Brock v Emerson Elec. Company., Electronic and
Space Division, 834 F.2d 994 (11th Cir. 1987) . . 15
Carpenter v United States,
138 S.Ct. 2206 (2018) . . . . . . . . . . . . . . . . . . . . . . 10
City of Los Angeles v Patel,
576 U.S. 409 (2015) . . . . . . . . . . . . . . 5, 12, 14, 16
Entick v Carrington,
(1765) 95 Eng. Rep.807 (KB) . . . . . . . . . . . . . 11, 12
Hale v Henkel,
201 U.S. 43 (1906) . . . . . . . . . . . . . . . . . . . 5, 10, 12
Katz v United States,
389 U.S. 347 (1967) . . . . . . . . . . . . . . . . . . . . 5, 8, 9
Lenz v Winburn,
51 F.3d 1540 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
McLaughlin v Kings Island,
849 F.2d 990 (6th Cir. 1988) . . . . . . . . . . . . . . . . 15

x
Okla. Press Publl’g Company v Walling,
327 U.S. 186 (1946) . . . . . . . . . . . . . . . . . . . . . . . 10
Patel v City of Los Angeles,
738 F.3d 1058 (9th Cir. 2013) . . . . . . . . . . . . . . . 16
Rakas v Illinois,
439 U.S. 128 (1978) . . . . . . . . . . . . . . . . . . . . . . . 16
See v City of Seattle,
387 U.S. 541 (1987) . . . . . . . . . . . . . . . . . . . . . 7, 13
Shapiro v United States,
335 U.S. 1 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . 15
Soldal v Cook County,
506 U.S. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
United States v Morton Salt Company,
338 U.S. 632 (1950) . . . . . . . . . . . . . . . . . . . . . . . 10
United States v Jones,
565 U.S.400 (2012) . . . . . . . . . . . . . . . . . . . . . . . 8, 9
United States v Paige,
136 F.3d 1012 (5th Cir. 1998) . . . . . . . . . . . . . . . . 9
CONSTITUTION AND STATUTES
U.S. Const., amend. IV. . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

xi
MUNICIPAL CODES AND REGULATIONS
San Jose, California, Municipal Code
§ 17.23.310 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
San Jose, California, Municipal Code
§ 17.23.500 (A) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
San Jose, California, Municipal Code
§ 17.23.530 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
San Jose, California, Municipal Code
§ 17.23.600 (C) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
San Jose, California, Municipal Code
§ 17.23.700 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
San Jose, California, Municipal Code
§ 17.23.800-870 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
San Jose, California, Municipal Code
§ 17.23.900 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
San Jose, California, Regulations
§ 4.05 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
San Jose, California, Regulations
§ 8.02 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
San Jose, California, Regulations
§ 9.02.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
PETITION FOR WRIT OF CERTIORARI
DEAN HOTOP, KEN SCHNEEBELI, JEFF ZELL,
SHERMAN ZELL, LOIS ZELL, LOUISE PETER,
SEIGI TADOKORO, PAT CREMA, SEAN
RHINEHART, SHUCHUN HUANG, JAMES
CAMPAGNA, SAL RUIZ, ISAAC AGAM, STEVE
MAHL, LLOYD KIP, ROBERTA MOORE, DENG LIU,
SHASHA CHEN, XIAODONG LI, ZHONGHUA PEI,
XIAOCONG YE, SMALL PROPERTY OWNERS
ASSOCIATION - SAN JOSE, in its representative
capacity on behalf of its association members
respectfully petition this Court for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Ninth Circuit.
OPINIONS BELOW
The opinion of the United States Court of
Appeals for the Ninth Circuit is reported at 982 F.3d
710 (9th Cir. 2020) and is reproduced in the appendix
hereto (“App.”) at App. 1-28. The order of the United
States Court of Appeals for the Ninth Circuit denying
the petition for panel rehearing and rehearing en banc
is not reported and is reproduced at App. 59-60. The
order of the United States District Court for the
Northern District of California granting the City of San
Jose’s motion to dismiss the first amended complaint is
not reported and is reproduced at App. 29-58.
STATEMENT OF JURISDICTION
The United States Court of Appeals for the Ninth
Circuit issued its opinion on December 7, 2020. The
United States Court of Appeals for the Ninth Circuit

2
denied the petition for panel rehearing and rehearing
en banc denied review on January 13, 2021.
This petition is timely filed within 150 days of the
denial of review by the United States Court of Appeals
for the Ninth Circuit. This Court has jurisdiction 28
U.S.C. § 1254(1 ).
STATUTORY PROVISIONS INVOLVED
Relevant statutory provisions are reproduced in the
appendix.
STATEMENT OF THE CASE
On November 28, 2017, the City of San Jose passed
and adopted Ordinance No. 30032 (“Ordinance” or
“SJMC”), effective December 29, 2017, amending the
City’s Apartment Rent Ordinance Concurrent with the
adoption of the Ordinance, the City adopted Resolution
78413 (“Regulations”) adopting regulations for the
implementation of the Ordinance. The Petitioners are
individual apartment owners and an unincorporated
trade association of San Jose landlords that are subject
to the Ordinance and Regulations.
The Ordinance and Regulations establish a “Rent
Registry” which requires that a landlord to complete
and submit a registration form for each “Rent
Stabilized Unit”, as defined therein, on an approved
City form on an annual basis. The landlords ability to
increase rents is contingent on their providing the
information. SJMC §17.23.900, App. 83-84.
The Regulations define the contents of the form to
include, the address of the subject rent stabilized unit;

3
the name and address of each landlord of the unit; the
occupancy status of the unit, and if occupied, the
commencement date of the current tenancy; the history
of the rent charged for the use and occupancy of the
unit; the amount of security deposit charged at the
inception of the tenancy; the number of tenants
occupying the unit, and the tenants’ names; the
household services that are being provided at the
inception of the tenancy; and the metering status of the
units. Regulations §4.05, App. 85-86.
When a tenant vacates a rent stabilized unit, the
landlord must re-register the unit and provide on a
City-approved form the amount of rent that that the
subsequent tenant is paying each month; the address
of the unit; the name of each subsequent tenant; a copy
of the written rental agreement (if any) between the
landlord and tenant; the reason the prior tenant
vacated the unit, if known. The Ordinance further
states that personally identifying information about
tenants and their households that is received by the
City under this section shall be used for investigation
and prosecution of the municipal code and other
applicable laws. SJMC § 17.23.600(C), App. 65-67.
If a landlord enters into a buyout agreement of a
tenant’s lease, he is required by the Ordinance to make
certain disclosures to the tenant and provide the City
with executed copies of the agreement and disclosure
form. SJMC § 17.23.700, App. 67.
Landlords who violate the Ordinance face civil and
criminal misdemeanor penalties punishable by up to
six months of jail. SJMC § l7.23.500(A), App. 64.
Landlords who fail to comply with registration or

4
reregistration requirements may not increase rent for
the unregistered units. SJMC § 17.23.310, App. 63-64.
Landlords who charge fees or rents higher than what
is allowed by the Ordinance or Regulations are subject
to misdemeanor charges and civil penalties. SJMC
§17.23.530, App. 65
Certain portions of the Ordinance were not
amended and remained in place after its passage in
2017. When landlords petition to raise the rent on a
tenant by more than is ordinarily permitted (referred
to as a “Fair Return Standard”), they must provide
financial information from a variety of sources
including receipts, cancelled checks, and detailed
invoices, as well as tax returns, ledgers and insurance
claims. When landlords petition to pass through to
tenants the cost of capital improvements, they must
provide the number of units affected; the occupancy
status and rent charged for each unit; and detailed
records concerning the improvement including
financial information as to costs and payments. SJMC
§ 17.23.800-870, App. 67-83; Regulations §§ 8.02.02
and 9.02.1, App. 86-89.
After passage of the Ordinance and Regulations, the
petitioners sued the City under 42 U.S.C. § 1983 in the
United States District for the Northern District of
California claiming that rent registration, reregistration and buyout requirements violated their
Fourth, Fifth, and Fourteenth Amendment rights,
including the Contracts Clause.
In the district court, the petitioners argued that the
Ordinance and Regulations is an unconstitutional
administrative search scheme under both the property

5
and privacy prongs of the Fourth Amendment in
providing criminal sanctions for non-compliance rather
than an administrative subpoena process subject to
judicial review in accordance with City of Los Angeles
v Patel, 576 U.S. 409 (2015). The district court held
that the landlords did not have a privacy interest to the
challenged information disclosed since such
information was similar to the information disclosed
fair return and capital improvement provisions of the
Ordinance that petitioners were not challenging. The
district court did not address the petitioners’
alternative argument that under the property prong
“common law trespassory test” was not dependent on
whether there existed a reasonable expectation of
privacy to the information.
The district court granted the City's motion to
dismiss the first amended complaint with leave to
amend. Petitioners decided to stand on their complaint
and then appealed.
On appeal, the petitioners renewed the arguments
that they had made in the district court and also
argued that the compelled disclosure of the challenged
information under the Ordinance and Regulations was
a search under the functional equivalent of the
“common law trespassory test” and did not require a
physical trespass as demonstrated by this Court’s
precedents in Boyd v United States, 116 U.S. 616
(1886) and Hale v Henkel, 201 U.S. 43 (1906), and that
preceded the “reasonable expectation of privacy test”
first formulated in Katz v United States, 389 U.S. 347
(1967).

6
In a per curiam opinion, the Ninth Circuit affirmed
the district court dismissal of the action. Judges
Watford and Lee did not decide the issue whether with
respect to “papers” the Fourth Amendment is
implicated “only by a physical inspection of documents
themselves,” holding that “[e]ven if the Fourth
Amendment is implicated by certain nonphysical
intrusions, in that context the plaintiff must have a
reasonable expectation of privacy in the contents of the
documents before the government’s conduct can be
deemed a Fourth Amendment search.” App. 7-8.
Holding with the district court that the petitioners had
“failed to adequately allege that they have a reasonable
expectation of privacy in the information contained in
the business records at issue,” the majority held that
there was no Fourth Amendment search. Id.
On the Fourth Amendment issue, Judge Bennett
concurred in the result only. Judge Bennett atated that
“the Supreme Court’s Fourth Amendment
jurisprudence has consistently found that government
collection of information effects a search only when it
involves some physical intrusion or its functional
equivalent,” and that “[t]he government may also
conduct a constructive search by collecting information
through an ‘orderly taking under compulsion of
process,’” such as by a court order or a subpoena, “no
Supreme Court case has found a search based on a
requirement that a person transmit information as
part of a regulatory process, even if there are
penalties for noncompliance, and even if the
person has a reasonable expectation of privacy in
the requested information.” App. 21-23 (emphasis
added) (internal citations omitted).

7
A petition for panel rehearing and rehearing en
bane was filed and which the Ninth Circuit denied.
REASONS FOR GRANTING THE WRIT
The Ninth Circuit’s precedential decision is not only
wrong, but fundamentally so, and it also creates
confusion and disuniformity with what until now was
clear and consistent law.
As will be argued, while other circuits have
consistently adhered to this Court’s rulings that the
protections under the Fourth Amendment in possessory
interests in property are distinct from and not
dependent on a reasonable expectation of privacy, the
Ninth Circuit majority has now ruled otherwise, at
least in the context of administrative searches of
business records Adding to the confusion, Judge
Bennett’s concurrence not only disagrees with the
majority’s rationale but would eliminate any Fourth
Amendment protections regardless of the privacy
interests concerned when there is a compelled
production of documents or information by way of a
regulatory process. It is not clear why legal processes
are given preference under the Fourth Amendment to
regulatory processes as there is no meaningful
distinction between them. As will be argued, the Court
in See v City of Seattle, 387 U.S. 541 (1987) holds, or at
least strongly suggests, otherwise.
Both the majority and Judge Bennett appear to hold
that there is some form of a required records exception
to the Fourth Amendment, at least in the area of
administrative searches of business records. While
other circuits have held otherwise, the Court has never

8
definitively decided the issue or the scope of the
doctrine in the Fourth Amendment context.
The Fourth Amendment issues presented in this
case are important and of nationwide concern with far
reaching consequences in the area of administrative
search law that requires review by the Court to clear
up the confusion created by the Ninth Circuit.
A. THE NINTH CIRCUIT MAJORITY OPINION
MISAPPREHENDED THE APPROPRIATE
FOURTH AMENDMENT INQUIRY AS WELL
AS THE FUNDAMENTAL NATURE OF THE
INTERESTS IT PROTECTS
The Court has clarified that the Fourth Amendment
protects possessory and liberty interests even when
privacy rights are not implicated. Soldal v Cook
County, 506 U.S. 56, 63-64 & n. 8 (1992). As the Court
explained, while Katz v United States, 389 U.S. 347
(1967) and its progeny may have shifted the emphasis
in Fourth Amendment law from property to privacy,
“[t]here was no suggestion that the shift in emphasis
had snuffed out the previously recognized protection for
property under the Fourth Amendment.” Id. At 64.
Subsequently, the Court reiterated that a reasonable
expectation of privacy is not required for Fourth
Amendment protections to apply because “Fourth
Amendment rights do not rise or fall with the Katz
formulation.” United States v Jones, 565 U.S.400, 406
(2012)
The Ninth Circuit majority’s exclusive focus on the
Katz “reasonable expectation of privacy” standard was
fundamentally wrong and misguided. It need not have

9
made any conclusion as to expectations of privacy
because that is not the standard applicable in a
“search” analysis under the property prong of the
Fourth Amendment.
In Jones, Justice Scalia writing for the majority
made it clear that the Katz test “did not narrow the
Fourth Amendment’s scope,” Jones, 565 U.S. at 408,
but was “added to, not substituted for, the common-law
trespassory test.” Id. at 409.
In the context of a “seizure” of property under the
Fourth Amendment, even before Jones was decided
other circuits are in agreement that the Fourth
Amendment extends to an individual’s possessory
interests in property, even if his expectation of privacy
in that property has been completely extinguished. See
United States v Paige, 136 F.3d 1012, 1021 (5th Cir.
1998) (“The Supreme Court recently made clear that
the protection afforded by the Fourth Amendment
extends to an individual’s possessory interests in
property, even if his expectation of privacy in that
property has been completely extinguished.”) (citing
Soldal); Lenz v Winburn, 51 F.3d 1540, 1550 n. 10
(11th Cir. 1995) (“It is true that a possesory interest is
all that is needed for the Fourth Amendment’s
reasonableness requirement “It is true that a
possessory interest is all that is needed for the Fourth
Amendment’s reasonable requirement to apply to a
seizure) (citing Soldal); Bonds v Cox, 20 F.3d 697, 702
(6th Cir. 1994) (“[O]ur finding that Bonds had no
reasonableness expectation of privacy in the house at
417 4 Dunn A venue does not affect our conclusion that

10
Bonds has standing to challenge the seizure of her
property.”).
Therefore, the Ninth Circuit majority should have
analyzed whether the Ordinance and Regulations
constitute an unconstitutional search of a landlord’s
property irrespective of any privacy interest because
their business records and information are within the
enumerated categories protected by the Fourth
Amendment.
B. THE NINTH CIRCUIT CONCURRING
OPINION ERRED IN HOLDING THAT UNDER
NO CIRCUMSTANCES DOES A COMPELLED
PRODUCTION OF DOCUMENTS OR
INFORMATION BY WAY OF A REGULATORY
ORDINANCE IMPLICATE THE FOURTH
AMENDMENT
Judge Bennett’s concurring opinion was correct that
this Court’s case law has held that a constructive
search may occur by collecting information through an
“orderly taking under compulsion of process.” App. 22
(citing United States v Morton Salt Co., 338 U.S. 632,
652 (1950); Hale v Henkel, 201 U.S. 43, 76 (1906)). He
was also correct that “it is the government process
effecting access to the protected papers and records
that implicate the Fourth Amendment, and that court
orders directing the production of documents and
administrative subpoenas fall in the category of
searches. App. 22-23 (citing Carpenter v United States,
138 S.Ct. 2206, 2217 (2018); Boyd v United States, 116
U.S. 616,624 (1886); Okla. Press Publl’g Co. v Walling,
327 U.S. 186, 209-10 (1946)).

11
Boyd involved a constitutional challenge to a 1874
federal civil forfeiture law. Investigators had obtained
an order requiring Boyd to provide the government
with the invoice for items he had recently imported to
determine if he had paid the required custom taxes on
them. Boyd objected that forcing him to provide the
invoice was an unreasonable search and seizure in
violation of the Fourth Amendment. Significantly,
investigators did not enter Boyd’s home. They had only
obtained a court order requiring him to turn over his
property. As the Court stated, the typical case of a
“forcible entry into a man’s house and searching among
his papers” was “wanting.” Id., 116 U.S. at 622.
The Court held that complying with the
government’s order counted as a Fourth Amendment
search and seizure, stating: “Though the proceeding in
question is divested of many of the aggravating
incidents of actual search and seizure it contains
their substance and essence, and effects their
substantial purpose.” Id., 116 U.S. at 635 (emphasis
added).
Construing the Fourth Amendment “liberally”
rather than in a literal fashion, the Court concluded
that complying with the order was the “equivalent” of
an “actual” search and seizure and thus was equally
condemned.” Id., 116 U.S. at 635.
The leading case of Entick v Carrington, (1765) 95
Eng. Rep.807 (KB), Boyd reasoned, had not meant to
only condemn physical entries or physical intrusions on
property. As Boyd stated: “It is not the breaking of [a
man’s] doors, and the rummaging of his drawers, that
constitutes the essence of the offense.” Id., 116 U.S. at

12
630. Rather, the principles of Entick, and the Fourth
Amendment, included attempting to compel production
of a person’s papers regardless of whether a physical
trespass has occurred.
In Hale v Henkel, 201 U.S. 43 (1906), the Court
noted that “a search ordinarily implies a quest by an
officer of the law,” which did not occur when the
government issued a subpoena. Id., 201 U.S. at 76.
Nevertheless, the Court concluded that compelled
compliance with a government subpoena was a search
under Boyd. Id., 201 U.S. at 76.
The Court clarified the principle that a constructive
search may occur without a physical trespass to
property before it’s formulation of an alternative
“reasonable expectation of privacy” test in Katz.
However, Judge Bennett’s conclusion that a
constructive search can never occur by way of a
regulatory ordinance or statute is misplaced, and leads
to an end run around the protections given by the
Fourth Amendment.
By way of example, in Judge Bennett’s view the
Court’s holding in City of Los Angeles v Patel, 576 U.S.
409,421 (2015) turned on the ordinance’s lack of an
opportunity for judicial review prior to inspections, and
that there would be no need for precompliance review,
and no implication of the Fourth Amendment, if the
information had been sought only by a regulatory
ordinance that did not require physical inspections.
App. at 24.
According to Judge Bennett, this is so, “even if there
penalties for noncompliance, and even if the person has

13
a reasonable expectation of privacy in the requested
information.” App. at 23.
If this is correct, then there is no limit to the
documents and information that the government can
obtain merely by demanding it by statute or ordinance,
even though it would not be able to do so by a process
that requires physical inspections.
Judge Bennett’s categorical statement that “no
Supreme Court case has found a search based on a
requirement that a person transmit information as
part of a regulatory process,” App. 24, is also mistaken.
In See, the Court in extending the warrant
requirement to administrative physical inspections of
commercial premises equated such inspections to the
case of the inspection of business records by statute
that requires under the Fourth Amendment a subpoena
process “sufficiently limited in scope, relevant in
purpose, and specific in directive so that compliance
will not be unreasonably burdensome. Id. at 544.
The Court stated: “[t]he agency has the right to
conduct all reasonable inspections of such documents
which are contemplated by the statute, but it must
delimit the confines of a search by designating the
needed documents in a formal subpoena. In addition,
while the demand to inspect may be issued by the
agency, in the form of an administrative subpoena, it
may not be made and enforced by the inspector in the
field, and the subpoenaed party may be obtain judicial
review of the reasonableness of the demand prior to
suffering penalties for refusing to comply.” Id. at 54445.

14
Even before the Court decided Patel, it held that
that requiring a subpoena process subject to judicial
review before penalties can be imposed for a failure to
comply is necessary under the Fourth Amendment to
limit the government as to the reasonableness of its
demand even if such documents “are contemplated by
statute.” Id. at 544.
Contrary to Judge Bennett’s view, a regulatory
process that compels the transmission of records or
information to the government can implicate the
Fourth Amendment and be considered a constructive
search requiring an administrative subpoena process
subject to judicial review. There is no meaningful
distinction between a compelled production of records
by way of a legal process such as a subpoena or court
order and that required to be produced by a regulatory
process.
C. THERE IS NO “REQUIRED RECORDS”
EXCEPTION UNDER THE FOURTH
AMENDMENT
SUCH
THAT THE
PETITIONERS LOST THEIR FOURTH
AMENDMENT RIGHTS IN THEIR BUSINESS
RECORDS AND INFORMATION MERELY BY
THE ADOPTION OF THE ORDINANCE
The mere fact that the Ordinance requires landlords
to maintain and disclose business records and
information does not eviscerate their Fourth
Amendment rights.
Other circuits have held that an “individual’s
otherwise reasonable expectation of privacy cannot be
so easily stripped away merely by the adoption of a

15
regulation authorizing searches of an item or location.
See McLaughlin v Kings Island, 849 F.2d 990, 995 (6th
Cir. 1988) (“[T]he concept of ‘required records’ is not
synonymous with the absence of a privacy interest.”);
see also Brock v Emerson Elec. Co., Electronic & Space
Div., 834 F.2d 994, 996 (11th Cir. 1987) ( concluding
business had a privacy interest in records OSHA
required it to keep and make available for inspection).
The Court has held that there is a “required
records” exception that applies to the Fifth Amendment
privilege against self incrimination but not in the
Fourth Amendment context. See Shapiro v United
States, 335 U.S. 1, 33 (1948).
There are several reasons why the government’s
requirement that records be maintained and disclosed
does not automatically make those records subject to a
warrantless search. The most obvious reason is that
applying a required records exception to searches and
seizures of business records would eviscerate the
Fourth Amendment insofar as businesses are
concerned.
The government could conduct a warrantless search
of any business records by simply requiring them to be
maintained and disclosed. There is no reason why
records or information concededly private before the
government ordered that they be maintained and
disclosed should be stripped of protection simply
because the government now wants them kept for a
certain time in a certain format for regulatory
purposes.

16
Further, the fact records are required to be
maintained by the government does not mean they are
of interest only to the government. In many cases those
records will be compiled for internal business reasons.
Petitioners argued before the Ninth Circuit that the
records and information at issue here, as in Patel, is
highly sensitive business information that a landlord
would not normally disclose to competitors or the
public.
In Rakas v Illinois, 439 U.S. 128 (1978), the Court
stated: “One of the main rights attaching to property is
the right to exclude others, and one who owns or
lawfully possesses or controls property will in all
likelihood have a legitimate expectation of privacy by
virtue of the right to exclude.” Id. at 144 n. 12. See also
Patel v City of Los Angeles, 738 F.3d 1058, 1061- 1062
(9th Cir. 2013) (en banc).
By virtue of a landlord’s property interests in their
business records, they have a right to exclude others
from discovering its contents, which is the source of
their expectation of privacy in the records regardless of
the fact that the Ordinance requires that they be kept
and disclosed.
The majority opinion was mistaken that just
because there was some overlap between the records
and information to be disclosed in other portions of the
Ordinance that were not being challenged in this
lawsuit with the provisions at issue here, that they are
now public records and information.
To be sure, the petitioners also argued before the
Ninth Circuit that the records required to be disclosed

17
in other parts of the Ordinance such as in a fair return
petition where a landlord requests a right to increase
a tenant’s rent beyond the standard rental increase,
was unlike the provisions challenged here. But
notwithstanding this, the petitioners reasonable
expectation of privacy in the records turns on the
nature of the records at issue and not on whether the
government requires that they be maintained and
disclosed.
Judge Bennett’s opinion is premised on the same
fallacy but is more far reaching than the majority. The
principle underlying his holding appears to be that in
a regulatory process there is a required records
exception to the Fourth Amendment regardless of the
privacy interests concerned.
CONCLUSION
For the foregoing reasons, Petitioners request
the Court to grant their petition for a writ of certiorari
Respectfully submitted,
FRANK A. WEISER
Counsel of Record
LAW OFFICES OF FRANK A. WEISER
3460 Wilshire Blvd., Suite 1212
Los Angeles, CA 90010
(213) 384-6964
maimons@aol.com
Counsel for Petitioners

